                              NCUA 2011
                      FINANCIAL STATEMENT AUDIT
                                 FOR
          TEMPORARY CORPORATE CREDIT UNION STABILIZATION FUND




                  For the year ended December 31, 2011

        Audited Financial Statements             Audit Report Number

Temporary Corporate Credit Union                         OIG-12-07
Stabilization Fund




                              June 22, 2012




                            William A. DeSarno
                            Inspector General
                         EXECUTIVE SUMMARY

PURPOSE AND SCOPE              The National Credit Union Administration (NCUA)
                               Office of Inspector General contracted with the
independent public accounting firm of KPMG LLP to perform the financial
statement audits of the NCUA Operating Fund, the Share Insurance Fund, the
Central Liquidity Facility, the Community Development Revolving Loan Fund, and
the Temporary Corporate Credit Union Stabilization Fund for the year ended
December 31, 2011. The reports for the first four funds were issued on February
16, 2012 and can be found on the NCUA OIG’s website. This report is issued on
the NCUA Temporary Corporate Credit Union Stabilization Fund.

The purpose of the audit is to express an opinion on whether the financial
statements are fairly presented. The independent firm also reviewed the internal
control structure and evaluated compliance with laws and regulations, as part of
their audit.

The audit was performed in accordance with generally accepted auditing
standards and Government Auditing Standards issued by the Comptroller
General of the United States. The Inspector General contracted with KPMG LLP
in June 2009 to perform the financial statement audits mentioned above. The
contract was for 2009, with options for 2010 and 2011. The Inspector General
was the contracting officer for this contract.

AUDIT RESULTS        KPMG LLP expressed an unqualified opinion, stating that
                     the financial statements present fairly, in all material
respects, the financial position of the NCUA Temporary Corporate Credit Union
Stabilization Fund at December 31, 2011, and the results of operations for the
year then ended.

Although KPMG LLP did not express an overall opinion of the Funds’ compliance
with laws and regulations, their testing of compliance did not disclose any
significant deviations.

There were no significant deficiencies found or reported by KPMG.
National Credit Union Administration
Temporary Corporate Credit Union
Stabilization Fund
Financial Statements as of and for the Years Ended December 31, 2011 and 2010
NATIONAL CREDIT UNION ADMINISTRATION
TEMPORARY CORPORATE CREDIT UNION STABILIZATION FUND

TABLE OF CONTENTS



                                                               Page

INDEPENDENT AUDITORS’ REPORT ON FINANCIAL STATEMENTS              1

FINANCIAL STATEMENTS AS OF AND FOR THE YEARS ENDED
DECEMBER 31, 2011 AND 2010:

Balance Sheets                                                    2

Statements of Net Cost                                            3

Statements of Changes in Net Position                             4

Statements of Budgetary Resources                                 5

Notes to the Financial Statements                                 6



INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL
OVER FINANCIAL REPORTING                                          31


INDEPENDENT AUDITORS’ REPORT ON COMPLIANCE AND OTHER MATTERS      34
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006


                                         Independent Auditors’ Report


Inspector General, National Credit Union Administration and
The National Credit Union Administration Board:

We have audited the accompanying balance sheets of the National Credit Union Administration’s
Temporary Corporate Credit Union Stabilization Fund (TCCUSF) as of December 31, 2011 and 2010 and
the related statements of net cost, changes in net position, and statements of budgetary resources
(hereinafter referred to as “financial statements”) for the years then ended. These financial statements are
the responsibility of the TCCUSF’s management. Our responsibility is to express an opinion on these
financial statements based on our audits.
We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the financial statements are free of material misstatement. An audit includes consideration of
internal control over financial reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the TCCUSF’s
internal control over financial reporting. Accordingly, we express no such opinion. An audit also includes
examining, on a test basis, evidence supporting the amounts and disclosures in the financial statements,
assessing the accounting principles used and significant estimates made by management, as well as
evaluating the overall financial statement presentation. We believe that our audits provide a reasonable
basis for our opinion.
In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the Temporary Corporate Credit Union Stabilization Fund as of December 31, 2011
and 2010, and its net costs, changes in net position, and budgetary resources for the years then ended in
conformity with U.S. generally accepted accounting principles.
The information in the Required Supplementary Information is not a required part of the financial
statements, but is supplementary information required by U.S. generally accepted accounting principles.
We have applied certain limited procedures, which consisted principally of inquiries of management
regarding the methods of measurement and presentation of this information. However, we did not audit this
information and, accordingly, we express no opinion on it.
In accordance with Government Auditing Standards, we have also issued our reports dated June 21, 2012,
on our consideration of the TCCUSF’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, and contracts and other matters. The purpose of
those reports is to describe the scope of our testing of internal control over financial reporting and
compliance and the results of that testing, and not to provide an opinion on the internal control over
financial reporting or on compliance. Those reports are an integral part of an audit performed in accordance
with Government Auditing Standards and should be read in conjunction with this report in assessing the
results of our audits.




June 21, 2012
                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
NATIONAL CREDIT UNION ADMINISTRATION
TEMPORARY CORPORATE CREDIT UNION STABILIZATION FUND

BALANCE SHEETS
As of December 31, 2011 and 2010
(Dollars in thousands)
                                                                                 2011               2010
AS S ETS

INTRAGOVERNMENTAL
   Fund Balance with Treasury (Note 2)                                       $              -   $           500
   Investments, Net - U.S. Treasury Securities (Note 3)                             284,712            372,211
   Accounts Receivable - Due from the National
      Credit Union Share Insurance Fund                                                     -               194
   Other - Distribution Receivable due from the National Credit
      Union Share Insurance Fund (Note 5)                                           278,641                    -
Total Intragovernmental Assets                                                      563,353            372,905

PUBLIC
   Accounts Receivable - Special Premium Assessments from Insured
     Credit Unions, Net (Note 4)                                                          93                  2
   Accounts Receivable - Guarantee Fee on Temporary Corporate
      Credit Union Liquidity Guarantee Program, Net (Note 4)                             446                635
   Accounts Receivable - Guarantee Fee on National Credit Union
       Administration Guaranteed Notes, Net (Note 4)                                    4,465              3,233
   Other - Receivables from Asset M anagement Estates, Net (Note 6)                 626,678                    -
Total Public Assets                                                                 631,682                3,870
TOTAL AS S ETS                                                               $     1,195,035    $      376,775

LIABILITIES

INTRAGOVERNMENTAL
   Accounts Payable - Due to the National Credit Union
      Share Insurance Fund                                                   $             2    $              -
   Debt - Borrowings from the U.S. Treasury (Note 7)                               3,500,000                   -
   Other - Accrued Interest Payable to the U.S. Treasury (Note 7)                       2,477                  -
Total Intragovernmental Liabilities                                                3,502,479                   -

PUBLIC
   Accounts Payable                                                                     1,423              1,410
   Other Liabilities                                                                    1,031                  -
   Other - Insurance and Guarantee Program Liabilities (Note 8)                    2,944,207         7,833,046
Total Public Liabilities                                                           2,946,661         7,834,456
TOTAL LIABILITIES                                                                  6,449,140         7,834,456
Commitments and Contingencies (Note 8)

NET POS ITION
   Cumulative Result of Operations (Note 1)                                       (5,254,105)        (7,457,681)
Total Net Position                                                                (5,254,105)        (7,457,681)
TOTAL LIABILITIES AND NET POS ITION                                          $     1,195,035    $      376,775

The accompanying notes are an integral part of these financial statements.


                                                                        2
NATIONAL CREDIT UNION ADMINISTRATION
TEMPORARY CORPORATE CREDIT UNION STABILIZATION FUND

STATEMENTS OF NET COST
For the Years Ended December 31, 2011 and 2010
(Dollars in thousands)

                                                                                 2011                 2010

GROSS COSTS
Interest Expense on Borrowings (Note 7 and Note 9)                           $        2,477       $        6,285
Insurance and Guarantee Loss Expense (Note 8)                                       110,500            1,467,546
Imputed Costs (Note 9)                                                                3,778                5,858
Fee on Early Retirement of Borrowings from the
    U.S. Treasury (Note 7 and Note 9)                                                     -                  5,811
Administrative Expenses (Note 9)                                                        8,223                4,647
      Total Gross Costs                                                             124,978            1,490,147

LESS EARNED REVENUES
Special Premium Revenue (Note 9)                                                  (1,956,462)           (999,592)
Guarantee Fee Revenue - National Credit Union Administration
    Guaranteed Notes (Note 9)                                                       (82,618)                 (7,577)
Guarantee Fee Revenue - Temporary Corporate Credit Union
    Liquidity Guarantee Program (Note 9)                                                (6,850)              (7,964)
Gain on Early Retirement of Loans to Corporate Credit Unions                               -                 (3,785)
Interest Revenue - Loans                                                                   -                 (3,673)
Interest Revenue - Investments (Note 3)                                                   (205)                (293)
      Total Earned Revenues                                                       (2,046,135)          (1,022,884)

NET COST (INCOME) OF OPERATIONS                                              $    (1,921,157)     $      467,263

The accompanying notes are an integral part of these financial statements.




                                                                3
NATIONAL CREDIT UNION ADMINISTRATION
TEMPORARY CORPORATE CREDIT UNION STABILIZATION FUND

STATEMENTS OF CHANGES IN NET POSITION
For the Years Ended December 31, 2011 and 2010
(Dollars in thousands)

                                                                      2011                 2010

CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                              $      (7,457,681)     $   (6,996,276)

BUDGETARY FINANCING SOURCES
 Other - Distribution Receivable due from the National Credit Union
  Share Insurance Fund (Note 5)                                              278,641               -

OTHER FINANCING SOURCES
 Imputed Financing (Note 9)                                                    3,778              5,858

Total Financing Sources                                                   282,419              5,858
Net (Cost) / Income of Operations                                       1,921,157           (467,263)
Net Change                                                              2,203,576           (461,405)


CUMULATIVE RESULTS OF OPERATIONS                                       (5,254,105)         (7,457,681)

NET POSITION                                                    $      (5,254,105)     $   (7,457,681)


The accompanying notes are an integral part of these financial statements.




                                                       4
NATIONAL CREDIT UNION ADMINISTRATION
TEMPORARY CORPORATE CREDIT UNION STABILIZATION FUND

STATEMENTS OF BUDGETARY RESOURCES
For the Years Ended December 31, 2011 and 2010
(Dollars in thousands)
                                                                                      2011               2010
BUDGETARY RESOURCES (Notes 10, 11, 12, and 14)
Unobligated Balance, brought forward, January 1                                   $     6,362,814    $    5,361,945
Budget Authority
 Borrowing Authority Realized                                                                 -           5,810,000
 Spending Authority from Offsetting Collections
    Collected                                                                           2,312,603         5,939,224
    Change in Receivables from Federal Sources                                               (194)          (21,157)
 Anticipated Nonexpenditure Transfers, Net                                                278,641               -
 Permanently Not Available                                                                    -          (5,810,000)
TOTAL BUDGETARY RESOURCES                                                         $     8,953,864    $   11,280,012

STATUS OF BUDGETARY RESOURCES
Obligations Incurred - Reimbursable                                               $     5,895,619    $    4,917,198
Unobligated Balance - Exempt from Apportionment                                         3,058,245         6,362,814
TOTAL STATUS OF BUDGETARY RESOURCES                                               $     8,953,864    $   11,280,012

CHANGE IN OBLIGATED BALANCES
Obligated Balance, Net:
 Unpaid Obligations, brought forward, January 1                                   $        10,091    $        2,589
 Uncollected Customer Payments from Federal sources, brought forward, January 1              (194)          (21,351)
 Total Unpaid Obligated Balance, brought forward, January 1                                 9,897           (18,762)
Obligations Incurred, Net                                                               5,895,619         4,917,198
Gross Outlays                                                                          (5,900,602)       (4,909,696)
Change in Uncollected Customer Payments from Federal Sources                                  194            21,157
TOTAL OBLIGATED BALANCES, NET, END OF PERIOD                                      $          5,108   $        9,897

OBLIGATED BALANCE, NET, END OF PERIOD:
Unpaid Obligations, end of period                                                 $          5,108   $      10,091
Uncollected Customer Payments from Federal Sources, end of period                             -                 (194)
TOTAL UNPAID OBLIGATED BALANCES, NET, END OF PERIOD                               $          5,108   $        9,897

NET OUTLAYS
Gross Outlays                                                                     $     5,900,602    $    4,909,696
Offsetting Collections
  Interest on Federal Securities                                                             (205)              (293)
  Non-Federal Sources                                                                  (2,312,398)       (5,938,931)
TOTAL NET OUTLAYS                                                                 $     3,587,999    $   (1,029,528)

The accompanying notes are an integral part of these financial statements.

                                                            5
 NATIONAL CREDIT UNION ADMINISTRATION
 TEMPORARY CORPORATE CREDIT UNION STABILIZATION FUND

 NOTES TO THE FINANCIAL STATEMENTS
 AS OF AND FOR THE YEARS ENDED DECEMBER 31, 2011 AND 2010


1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

  Reporting Entity

  The Temporary Corporate Credit Union Stabilization Fund (TCCUSF) was created by Public Law
  111 – 22, Helping Families Save Their Homes Act of 2009 (Helping Families Act), enacted May 20,
  2009. The TCCUSF was established as a revolving fund in the Treasury of the United States (U.S.
  Treasury) under the management of the National Credit Union Administration (NCUA) Board (NCUA
  Board). The purposes of the TCCUSF are to accrue the losses of the corporate credit union (CCU)
  system and, over time, assess the credit union system for the recovery of such losses.

  The TCCUSF may make expenditures only in connection with the conservatorship, liquidation, or
  threatened conservatorship or liquidation of a CCU. Governing legislation specified that the TCCUSF
  would terminate 90 days after the seven year anniversary of its first borrowing from the U.S. Treasury
  which was June 25, 2009. With the concurrence of the U.S. Treasury, the TCCUSF’s termination date
  was extended to June 30, 2021.

  On June 18, 2009, the NCUA Board approved actions to legally obligate the TCCUSF for the costs of
  stabilizing the CCU system. These actions legally obligated the TCCUSF for all liabilities arising from
  the Temporary Corporate Credit Union Share Guarantee Program (TCCUSGP) and the Temporary
  Corporate Credit Union Liquidity Guarantee Program (TCCULGP). Under the TCCUSGP, the NCUA
  guarantees the entire share amount that member credit unions have on deposit with CCUs, subject to
  certain limitations. Under the TCCULGP, the NCUA guarantees the timely payment of principal and
  interest on certain unsecured debt of participating CCUs. The funding for the NCUA’s guarantees
  under the TCCUSGP and TCCULGP is primarily provided by the TCCUSF.

  Recent Legislation
  In January 2011, The National Credit Union Authority Clarification Act, Public Law 111-382
  (Clarification Act), amended the Federal Credit Union Act (FCU Act) by clarifying NCUA’s authority
  to assess a premium against federally insured (insured) credit unions not only to repay TCCUSF
  advances but also to make TCCUSF expenditures without borrowing from the U.S. Treasury. The
  Clarification Act permits the NCUA Board to assess a special premium with respect to each insured
  credit union in an aggregate amount that is reasonably calculated to make any pending or future
  TCCUSF expenditures, in addition to existing authority to make assessments to repay U.S. Treasury
  advances. The Clarification Act also states that the NCUA Board must take into consideration any
  potential impact on insured credit union earnings that such an assessment may have and requires the
  premium be paid not later than 60 days after the date of the assessment.

  Fiduciary Responsibilities

  On September 24, 2010, the NCUA Board announced the Corporate System Resolution Program
  (CSRP). The CSRP is a multi-stage plan for stabilizing the CCU system, providing short-term and
  long-term funding to resolve a portfolio of residential mortgage-backed securities (RMBS), commercial
  mortgage-backed securities (CMBS), other asset-backed securities (ABS) and corporate bonds
  (collectively referred to as the Legacy Assets) held by the failed CCUs, and establishing a new
  regulatory framework for CCUs. Under the CSRP, the NCUA created a re-securitization program to
  provide long-term funding for the Legacy Assets through the issuance of the NCUA Guaranteed Notes

                                                    6
(NGNs) by the trusts established for this purpose (NGN Trusts). The NGNs are guaranteed by the
NCUA, and backed by the full faith and credit of the United States Government. The principal funding
for the NCUA’s guarantees on the NGNs is provided by the TCCUSF. To the extent that required
funding for the guarantees exceeds the funds available from the TCCUSF, the National Credit Union
Share Insurance Fund (NCUSIF) will provide the needed funds.

As part of the CSRP, the NCUA Board liquidated five CCUs during 2010. The assets and liabilities of
liquidated CCUs were placed into Asset Management Estates (AMEs), and are administered by the
NCUA Board as liquidating agent, through its Asset Management and Assistance Center (AMAC),
pursuant to applicable provisions of the FCU Act. To facilitate the resolution process, the NCUA
Board chartered four bridge corporate credit unions (Bridge Corporates) to purchase certain assets and
assume certain liabilities and member shares from the AMEs. The Bridge Corporates are private legal
entities, separate from the TCCUSF and therefore are not part of the reporting entity. There is no
fiduciary relationship between the TCCUSF and the Bridge Corporates. To the extent that the liabilities
and shares assumed exceeded the assets purchased by the Bridge Corporates, the AMEs issued
promissory notes (Promissory Notes) to the Bridge Corporates for the difference. Each Promissory
Note was guaranteed by the NCUA, and primarily funded by the TCCUSF.

Fiduciary activities are the collection or receipt, management, protection, accounting, investment, or
disposition by the Federal Government of cash or other assets, in which non-federal individuals or
entities have an ownership interest that the Federal Government must uphold. The NCUA’s AMAC
conducts liquidations and performs management and recovery of assets for failed credit unions,
including failed CCUs. The assets and liabilities of the AMEs and NGN Trusts are considered
fiduciary in accordance with the Statement of Federal Financial Accounting Standards (SFFAS) No. 31,
Accounting for Fiduciary Activities (SFFAS No. 31). Fiduciary assets are not assets of the Federal
Government and therefore are not recognized on the Balance Sheet of the TCCUSF.

Sources of Funding

The TCCUSF has multiple sources of funding, including special premium assessments, investment
interest income, guarantee fees, and borrowings from the U.S. Treasury. The NCUA Board may assess
premiums to all insured credit unions, as provided by the FCU Act.

The TCCUSF may also receive additional funding from the NCUSIF under certain circumstances. As
part of the Helping Families Act, when the TCCUSF has an advance outstanding from the U.S.
Treasury and the NCUSIF would have otherwise paid a dividend to insured credit unions, the NCUSIF
is obligated to make distributions to the TCCUSF in lieu of distributions to the insured credit unions to
the maximum amount possible that does not reduce the NCUSIF’s equity ratio below the normal
operating level, as defined, of 1.3 percent, and does not reduce the NCUSIF’s available assets ratio, as
defined, below 1.0 percent.

In addition, the TCCUSF has $6.0 billion in revolving borrowing authority from the U.S. Treasury,
shared with the NCUSIF. At December 31, 2011, there was $2.5 billion in available borrowing
authority.

Basis of Presentation

The TCCUSF’s financial statements have been prepared from its accounting records in accordance with
standards promulgated by the Federal Accounting Standards Advisory Board (FASAB). FASAB is
designated by the American Institute of Certified Public Accountants as the source of generally
accepted accounting principles (GAAP) for federal reporting entities. The format of the financial
statements and footnotes are in accordance with the form and content guidance provided in Office of



                                                   7
Management and Budget (OMB) Circular A-136, Financial Reporting Requirements, revised
October 27, 2011.

Basis of Accounting

In its accounting structure, the TCCUSF records both proprietary and budgetary accounting
transactions. Following the accrual method of accounting, revenues are recognized when earned and
expenses are recognized when incurred, without regard to the actual collection or payment of cash.

Federal budgetary accounting recognizes the obligation of appropriations, borrowing authorities, and
other funds upon the establishment of a properly documented legal liability, which may be different
from the recording of an accrual-based transaction. The recognition of budgetary accounting
transactions is essential for compliance with legal controls over the use of federal funds and compliance
with budgetary laws.

The NCUA, including the TCCUSF, is exempt from requirements under the Federal Credit Reform Act
of 1990 (Section 661e(a)(1)).

Use of Estimates

The preparation of financial statements in conformity with GAAP for the Federal Government requires
management to make estimates and assumptions that affect the following:

    •   reported amounts of assets and liabilities;
    •   disclosure of contingent assets and liabilities at the date of the financial statements; and
    •   the amounts of revenues and costs reported during that period.

Actual results could differ from estimates. Significant items subject to those estimates and assumptions
include: (i) reserves for probable losses and contingencies related to Insurance and Guarantee Program
Liabilities; (ii) the amount and timing of recoveries, if any, related to any claims paid in settlement of
the guarantee liabilities; and (iii) allowance amounts established related to reimbursements from the
failed CCUs (AMEs) for claims paid in settlement of the guarantee liabilities. The current economic
environment has increased the degree of uncertainty inherent in those estimates and assumptions.

Fund Balance with Treasury

Fund Balance with Treasury (FBWT) is the aggregate amount of the TCCUSF’s accounts with the
Federal Government’s central accounts, from which the TCCUSF is authorized to make expenditures
and pay liabilities. The entire FBWT is a revolving fund type.

Investments

Investments represent non-marketable U.S. Treasury securities purchased and reported at par value,
which are overnight securities managed by the Bureau of the Public Debt (BPD). Cash balances in
FBWT may be invested overnight in non-marketable U.S. Treasury securities.

Accounts Receivable

Accounts receivable represent the TCCUSF’s claims for payment from other entities. Gross
receivables are reduced to net realizable value by an allowance for doubtful accounts as further
discussed below. The TCCUSF’s accounts receivable consists of two components: Intragovernmental
and Public. Intragovernmental accounts receivable due from the NCUSIF represent special premium
assessments to insured credit unions that were collected by the NCUSIF on behalf of the TCCUSF, but

                                                    8
not yet transferred to the TCCUSF for its use and benefit. Public accounts receivable represent
outstanding balances of the special premiums assessed to insured credit unions and guarantee fees
associated with the TCCULGP and NGNs, as described herein.

Allowance for Doubtful Accounts
An allowance for doubtful accounts represents the TCCUSF’s best estimate of the amount of credit
losses in an existing receivable. Based on an assessment of collectability, the TCCUSF calculates an
allowance on an individual account basis for public accounts receivable. An account may be impaired
or written off if it is probable that the TCCUSF will not collect all amounts contractually due. No
allowance is calculated for intragovernmental accounts receivable, as these are deemed to be fully
collectible.

Other - Distribution Receivable

The TCCUSF records a distribution receivable from the NCUSIF, per Section 217(e) of the FCU Act,
when the TCCUSF has an outstanding advance (borrowing) from the U.S. Treasury and the NCUSIF is
required to make a distribution. As such, the NCUSIF is prohibited from making the distribution to
insured credit unions described in Section 202(c)(3) of the FCU Act, and instead must make its
distribution to the TCCUSF.

Other - Receivables from Asset Management Estates

Receivables from AMEs include claims to recover payments made by the TCCUSF to satisfy
obligations to insured shareholders and other guaranteed parties, and to recoup administrative expenses
paid on behalf of AMEs. Any related allowance for losses represents the difference between the funds
disbursed and the expected repayment from the AMEs pursuant to the liquidation payment priorities set
forth in 12 Code of Federal Regulations (CFR) Section 709.5(b), Payout Priorities in Involuntary
Liquidation (CFR Section 709.5(b)). Assets held by the AMEs are the main source of repayment of the
TCCUSF’s receivables from the AMEs. The recoveries from these AME assets are paid to the
TCCUSF to the extent a receivable is due.

The allowance for losses on receivables from AMEs is based on asset recovery rates, and comes from
several sources, including:

    •   actual or pending AME asset disposition data;
    •   asset valuation data based upon the performance, quality, and type of the assets in the portfolio;
    •   estimated liquidation costs based on information from recently failed credit unions; and
    •   estimated AME specific administrative expenses based upon complexity and expected duration
        of the AME.

Asset recovery rates are evaluated during the year, but remain subject to uncertainties because of
potential changes in economic and market conditions.

Net Position and Accumulated Deficit

The TCCUSF has an accumulated deficit in its net position primarily due to the Insurance and
Guarantee Program Liabilities, borrowings from the U.S. Treasury, and the allowance for losses
associated with the receivables from AMEs. As allowed under the TCCUSF’s enabling legislation, and
incorporated into the FCU Act as Section 217(g), the financial condition of the TCCUSF may reflect a
deficit. In accordance with Section 217(d) of the FCU Act, the TCCUSF may assess special premiums
to recover the losses of the CCU system borne by the TCCUSF over time.




                                                   9
Debt – Borrowings from the U.S. Treasury

The amount of debt owed and payable by the TCCUSF is recognized at par value and consists solely of
borrowings from the U.S. Treasury via BPD.

Accrued Interest Payable to the U.S. Treasury

Accrued interest payable represents interest expense incurred but unpaid on principal owed to the U.S.
Treasury on borrowings.

Insurance and Guarantee Program Liabilities and Contingencies

In accordance with SFFAS No. 5, Accounting for Liabilities of The Federal Government (SFFAS No.
5), all federal insurance and guarantee programs, except social insurance and loan guarantee programs,
should recognize a liability for the following:

    •   Unpaid claims incurred, resulting from insured events that have occurred as of the reporting
        date.
    •   A contingent liability when an existing condition, situation, or set of circumstances involving
        uncertainty as to possible loss exists, and the uncertainty will ultimately be resolved when one
        or more probable future events occur or fail to occur.
    •   A future outflow or other sacrifice of resources that is probable.

The TCCUSF records a contingent liability for probable losses relating to CCUs under the TCCUSGP
and TCCULGP, as well as probable losses, if any, for the guarantees associated with the NGNs and the
Promissory Notes.

Liabilities for loss contingencies also arise from claims, assessments, litigations, fines, penalties, and
other sources. These liabilities are recorded when it is probable that a liability has been incurred and
the amount of the assessment and/or remediation can be reasonably estimated. Legal costs incurred in
connection with loss contingencies are expensed as incurred.

Revenue Recognition

Exchange Revenue
Exchange revenues arise and are recognized when a Federal Government entity provides goods and
services to the public or to another Federal Government entity for a price. Exchange revenue consists
of special premium assessments, guarantee fee income, interest revenue, and other fees.

Non-exchange Revenue
Non-exchange revenues are inflows of resources that the Federal Government demands or receives by
donation. Such revenues are recognized when a specifically identifiable, legally enforceable claim to
resources arises, to the extent that collection is probable (more likely than not) and the amount is
reasonably estimable.

Special Premium Assessments from Insured Credit Unions
Under the statutory authority provided by the Helping Families Act, the NCUA Board may assess each
insured credit union a special premium charge that shall be stated as a percentage of its insured shares
as represented on the insured credit union’s previous call report.

Guarantee Fees on Temporary Corporate Credit Union Liquidity Guarantee Program
For a fee, the NCUA guarantees the timely payment of principal and interest on certain unsecured debt
of participating CCUs, principally funded through the TCCUSF.

                                                   10
  Guarantee Fees on NCUA Guaranteed Notes
  For a fee, the NCUA guarantees the timely payment of principal and interest on NGNs, principally
  funded through the TCCUSF.

  Imputed Financing Sources

  The TCCUSF records an imputed cost on the Statement of Net Cost and an offsetting imputed
  financing source on the Statement of Changes in Net Position for CSRP administrative expenses paid
  by the NCUA Operating Fund but not reimbursed by the TCCUSF.

  Tax-Exempt Status

  The TCCUSF is exempt from Federal income taxes under Section 501(c)(1) of the Internal Revenue
  Code.

  Reclassification

  Certain prior year amounts have been reclassified to conform to the current year presentation.

2. FUND BALANCE WITH TREASURY

  Fund Balance with Treasury balances and status consisted of the following (in thousands):

                                            As of December 31,           As of December 31,
                                                   2011                         2010
  Total Fund Balance with Treasury:
   Revolving Funds                          $                 -          $                500


  Status of Fund Balance with Treasury:
   Unobligated Balance - Available          $            3,058,245       $           6,362,814
   Obligated Balance Not Yet Disbursed                      5,108                       9,897
   Non-Budgetary FBWT Accounts                           (284,712)                   (372,211)
   Non-FBWT Budgetary Accounts                        (2,778,641)                   (6,000,000)
  Total                                     $                 -          $                500


  As a revolving fund, the FBWT is used for continuing business activities. The TCCUSF collects
  special premium assessments and guarantee fees, which are used to fund payments for the
  conservatorship, liquidation, or threatened conservatorship or liquidation, of CCUs, without
  requirement for annual appropriations. FBWT contains monies available for future obligations and
  current activities. Non-budgetary FBWT Accounts consist of investments, while non-FBWT Budgetary
  Accounts consist of borrowing authority and nonexpenditure transfers. Funds not needed for immediate
  liquidity are invested in overnight U.S. Treasury securities.

  The FBWT account is increased by special premium assessments, guarantee fee income, proceeds from
  borrowings from the U.S. Treasury, interest income on investments in U.S. Treasury securities, and any
  recoveries from the AMEs. The FBWT account is decreased by amounts expended in support of
  stabilizing the CCU system, including guarantee payments, repayment of borrowings from the U.S.
  Treasury, and purchases of U.S. Treasury securities.



                                                    11
  As of December 31, 2011, there was a $52.9 million credit balance for FBWT in the TCCUSF’s general
  ledger as well as the U.S. Treasury. This credit balance was due to the purchase of an overnight U.S.
  Treasury security in an amount greater than funds available. The TCCUSF’s FBWT and overnight U.S.
  Treasury security are held with the same counter party, the U.S. Treasury. NCUA offset the FBWT
  with the overnight investment balance, resulting in FBWT of zero dollars and a reduction of
  investments by $52.9 million. NCUA resolved the credit balance with the U.S. Treasury on January 3,
  2012.

  As of December 31, 2011 and 2010, there were no unreconciled differences between U.S. Treasury
  records and balances reported in the TCCUSF’s general ledger.

3. INVESTMENTS

  The TCCUSF invests in non-marketable daily overnight U.S. Treasury securities, which are purchased
  at par value. As of December 31, 2011 and 2010, the cost and market value of U.S. Treasury securities
  were as follows:

  As of December 31, 2011 and 2010                                              Amortized
                                                         Amortization           (Premium)      Interest                                              Market Value
                                              Cost         Method                Discount     Receivable         Investments   Other Adjustments      Disclosure
  (Dollars in thousands)

  Non-Marketable, par value, 12/31/2011   $    284,712                  n/a $               - $            - $         284,712 $               - $         284,712

  Non-Marketable, par value, 12/31/2010   $    372,211                  n/a $               - $            - $         372,211 $               - $         372,211

4. ACCOUNTS RECEIVABLE

  Public Accounts Receivable

  Special Premium Assessments from Insured Credit Unions
  As of December 31, 2011 and 2010, special premium assessments that had not been paid by insured
  credit unions totaled $93.0 thousand and $2.0 thousand, respectively.

  TCCULGP Guarantee Fee Receivable
  For a fee, the NCUA guarantees the timely payment of principal and interest on certain unsecured debt
  of participating CCUs, principally through the TCCUSF. The TCCUSF invoices participating CCUs on
  a monthly basis for the guarantee fee. As of December 31, 2011 and 2010, there were $446.0 thousand
  and $635.0 thousand in TCCULGP guarantee fee receivable, respectively.

  NGN Guarantee Fee Receivable
  For a fee, the NCUA guarantees the timely payment of principal and interest on NGNs, principally
  through the TCCUSF. Guarantee fees on each NGN Trust are 35 basis points per year, payable
  monthly, on the outstanding balance of the NGNs. As of December 31, 2011 and 2010, there were $4.5
  million and $3.2 million in NGN guarantee fee receivable, respectively.

  Allowance for Doubtful Accounts
  The allowance for doubtful accounts on public accounts receivable above as of December 31, 2011 and
  2010 was zero.




                                                                                12
5. OTHER - DISTRIBUTION RECEIVABLE

  In accordance with Section 202(c)(3) of the FCU Act, Distributions from Fund Required, the NCUA
  Board shall effect a pro rata distribution from the NCUSIF to insured credit unions after each calendar
  year, if:
         (i) any loans to the NCUSIF from the Federal Government, and any interest on those loans, have
         been repaid; and
         (ii) the NCUSIF’s equity ratio exceeds the normal operating level, as defined, of 1.3 percent; and
         (iii) the NCUSIF’s available assets ratio, as defined, exceeds 1.0 percent.

  The amount of distribution shall equal the maximum possible amount that does not reduce the
  NCUSIF’s equity ratio below the normal operating level, as defined, of 1.3 percent, and does not reduce
  the NCUSIF’s available assets ratio, as defined, below 1.0 percent.

  As of December 31, 2011, the TCCUSF had an outstanding advance (borrowing) from the U.S.
  Treasury. In lieu of the distribution to the insured credit unions, the NCUSIF shall make a distribution
  to the TCCUSF for the maximum amount possible that does not reduce the NCUSIF’s equity ratio
  below the normal operating level, as defined, of 1.3 percent and does not reduce the NCUSIF’s
  available assets ratio, as defined, below 1.0 percent.

  As of December 31, 2011, the TCCUSF had a distribution receivable due from the NCUSIF of $278.6
  million. The TCCUSF did not have a distribution receivable from the NCUSIF as of December 31,
  2010.

6. OTHER – RECEIVABLES FROM ASSET MANAGEMENT ESTATES

  As of December 31, 2011, the gross receivables from AMEs were $5.6 billion, and the related
  allowance for losses were $5.0 billion, for net receivables from AMEs of $626.7 million. The net
  receivables from AMEs represent the TCCUSF's expected reimbursements from the AMEs for claims
  paid by the TCCUSF during 2011 under the guarantees for the Promissory Notes, net of any recoveries,
  as further discussed in Note 8. The TCCUSF had no receivable from AMEs as of December 31, 2010.

  The allowance for losses takes into account the NCUA’s assessment of expected recovery from the
  AMEs that reflects the NCUA's expectations and assumptions about the recovery value of the AMEs'
  assets, as further discussed under fiduciary activities in Note 13.

                                                                     For the Year Ended
                                                                     December 31, 2011
                    (Dollars in thousands)
                    Gross Receivables from AMEs                      $          5,626,017
                     Allowance for Losses beginning balance                          -

                     Increase in Allowance                                      4,999,339
                     Allowance for Losses ending balance                        4,999,339
                    Receivables from AMEs, Net                       $           626,678




                                                    13
7. DEBT – BORROWINGS FROM U.S. TREASURY

  As of December 31, 2011, the TCCUSF owed $3.5 billion to the U.S. Treasury. During 2011, the
  TCCUSF incurred interest expense of $2.5 million.

  During 2010, the TCCUSF borrowed and repaid a total of $4.8 billion from the U.S. Treasury. For the
  same period, the TCCUSF incurred interest expense of $6.3 million and fees of $5.8 million on the
  early retirement of the borrowings from the U.S. Treasury. The TCCUSF had no borrowings from the
  U.S. Treasury outstanding as of December 31, 2010.

8. OTHER LIABILITIES – INSURANCE AND GUARANTEE PROGRAM LIABILITIES

  The NCUA, in its role as the guarantor, is exposed to the risk of loss from various guarantees extended
  to the creditors of both the AMEs and the NGN Trusts. The estimates and expectations regarding the
  contingent liabilities recorded on the TCCUSF's Balance Sheet related to these guarantees are based on
  our current assumptions about the future performance of Legacy Assets collateralizing the NGNs issued
  through the NGN Trusts and the recovery value of other assets held by the AMEs. Actual results could
  differ materially from our current estimates and expectations.

  During 2011 and 2010, the TCCUSF was principally responsible for four initiatives and related
  guarantees to stabilize the CCU system: TCCUSGP, TCCULGP, Promissory Notes, and NGN
  issuances. The NCUA’s guarantees on the Promissory Notes and NGNs were new initiatives in 2010
  and are a direct result of the NCUA’s implementation of the CSRP.

  The NCUA uses both internal and external models, as well as external valuations to some extent, to
  estimate contingent liabilities associated with the four guarantees, as discussed herein. As shown in the
  table below, the TCCUSF recorded contingent liabilities on the TCCUSF’s Balance Sheet of
  approximately $2.9 billion and $7.8 billion as of December 31, 2011 and 2010, respectively. Pursuant
  to the FCU Act, the NCUA is authorized to assess insured credit unions for the recovery of such losses
  during the life of the TCCUSF.


  For the Years Ended December 31,
  2010 and 2011                          TCCUSGP          TCCULGP         Promissory Notes         NGNs              TOTAL
  (Dollars in thousands)


  Beginning Balance, 1/1/2010        $      6,365,500 $             -     $             -      $          -      $     6,365,500
  Provision for Losses                      (6,318,311)      2,402,447            4,768,897           614,513          1,467,546
  Insurance losses (Claims) paid                   -                -                   -                 -                   -
  Recoveries/Claims on AMEs                        -                -                   -                 -                   -
  Ending Balance, 12/31/2010                   47,189        2,402,447            4,768,897           614,513          7,833,046


  Provision for Losses                         13,690         494,006              217,317           (614,513)           110,500
  Insurance losses (Claims) paid              (26,611)         (13,125)          (5,679,041)              -            (5,718,777)
  Recoveries/Claims on AMEs                    26,611               -              692,827                -              719,438
  Ending Balance, 12/31/2011         $         60,879 $      2,883,328 $                -      $          -      $     2,944,207




  A description of each TCCUSF initiative and the associated contingent liability is provided below.




                                                              14
Temporary Corporate Credit Union Share Guarantee Program

The TCCUSGP is a guarantee of shares (excluding paid-in-capital and membership capital accounts) at
CCUs that began on January 28, 2009. The TCCUSGP protects the entire share account of credit
unions that are members of CCUs, subject to certain limitations. On March 1, 2009, the guarantee
became voluntary when CCUs were provided the option to participate in the TCCUSGP. Nearly all
CCUs elected to participate. The initial expiry of the guarantee was set for December 31, 2010,
however it has since been extended through December 31, 2012.

CCUs participating in the TCCUSGP do not pay a fee to the TCCUSF directly attributable to the
guarantee. To fund any claims under this initiative, the TCCUSF is authorized to make special
premium assessments of insured credit unions and, if necessary, draw on available borrowings from the
U.S. Treasury. The TCCUSF's obligation to pay holders of guaranteed shares arises only upon the
liquidation of the participating CCU.

As discussed herein, five CCUs were liquidated during 2010, which resulted in the establishment of
four Bridge Corporates. Pursuant to the NCUA Board action, the participation of these Bridge
Corporates in the TCCUSGP was approved. Each Bridge Corporate entered into a Letter of
Understanding and Agreement with the NCUA to extend the TCCUSGP to the Bridge Corporates’
shares that were assumed from the AMEs. Two Bridge Corporates were resolved through unassisted
mergers with other CCUs in 2011. As of December 31, 2011, two of the Bridge Corporates remain in
operation.

As a result, the TCCUSF is obligated for any liability arising from insured shares equal to the Standard
Maximum Share Insurance Amount (SMSIA), as defined, and shares in excess of the SMSIA
guaranteed under the TCCUSGP. To the extent that the liability exceeds the funds available from the
TCCUSF, the NCUSIF will provide the needed funds.

The TCCUSF's Insurance and Guarantee Program Liability associated with the TCCUSGP as of
December 31, 2011 and 2010 totaled approximately $60.9 million and $47.2 million, respectively. The
expected losses from TCCUSGP is dependent upon the NCUA's expectations and assumptions about
the Bridge Corporates’ and other CCUs financial condition and projected operating cash flows and any
expected recoveries after payment of a TCCUSGP liability. As of December 31, 2011 and 2010, the
aggregate outstanding insured shares of the CCUs under the TCCUSGP were $34.0 billion and $80.0
billion, respectively. The aggregate outstanding insured shares of the CCUs represent the maximum
potential, but not the expected, guarantee payments that the NCUA could be required to make under the
terms of the TCCUSGP.

Temporary Corporate Credit Union Liquidity Guarantee Program

The TCCULGP was created in October 2008 to provide a guarantee on certain unsecured debt of
participating CCUs. Under the terms of the TCCULGP, for a fee, the NCUA guarantees the timely
payment of principal and interest on certain unsecured debt of participating CCUs, principally funded
through the TCCUSF.

As of December 31, 2011 and 2010, the NCUA had made payments under the TCCULGP related to the
AMEs’ MTNs as described below.

Medium Term Notes
In 2009, US Central Federal Credit Union (USC) and Western Corporate Federal Credit Union issued
MTNs to the public debt market. These MTNs are guaranteed by the NCUA under the TCCULGP.
The MTNs were issued to fund the CCUs repayment of their loans from the NCUA Central Liquidity



                                                  15
Facility (CLF) under the Credit Union System Investment Program (SIP) and the Credit Union
Homeowners Affordability Relief Program (CU HARP).

As of December 31, 2011 and 2010, MTNs with principal amounts of $3.5 billion and $5.5 billion,
respectively, were outstanding and guaranteed under the TCCULGP, as follows:

         As of December 31, 2011 and 2010
         (Dollars in thousands)
                                                            2011 Amount           2010 Amount
         Coupon                    Maturity Date            Outstanding           Outstanding
         1.25%; Fixed                    10/19/2011 $                   -     $       1,500,000
         LIBOR; Floating                 10/19/2011                     -               500,000
         1.90%; Fixed                    10/19/2012               2,000,000           2,000,000
         1.75%; Fixed                     11/2/2012               1,500,000           1,500,000

                                                        $         3,500,000   $       5,500,000

Credit Union System Investment Program
Under the SIP, participating creditworthy natural person credit unions borrowed from the CLF and
invested the proceeds in participating CCUs. Natural person credit unions participating in this initiative
received a spread of 25 basis points between the borrowings from the CLF and the investment with
participating CCUs. In March 2010, the SIP ended when all borrowings from the CLF were repaid by
the participating natural person credit unions, whose corresponding CCU investments were repaid by
the participating CCUs, primarily with proceeds from the CCUs’ issuance of the MTNs.

Credit Union Homeowners Affordability Relief Program
The CU HARP was a two-year, $2.0 billion initiative to assist homeowners who are facing foreclosure
on their mortgages. Under the CU HARP, participating creditworthy natural person credit unions
borrow from the CLF and receive up to 100 basis points over the cost of borrowing from the CLF if
they modify at-risk mortgages, primarily by lowering interest rates and corresponding monthly
payments. The CU HARP program ended on December 30, 2010.

The TCCUSF's Insurance and Guarantee Program Liability associated with the TCCULGP as of
December 31, 2011 and 2010 totaled approximately $2.9 billion and $2.4 billion, respectively. The
TCCUSF's expected loss is based on the NCUA's assessment of the guarantee exposure on the
aggregate outstanding amount of MTNs, net of expected recovery from the AMEs that reflects the
NCUA's expectations and assumptions about the recovery value of the AMEs' assets, as further
discussed under fiduciary activities in Note 13.

The CU HARP and SIP ended in 2010 and therefore no related contingent liability was recorded as of
December 31, 2011 and 2010 for these initiatives.

Promissory Notes

In accordance with the terms of each Promissory Note agreement between the AMEs and Bridge
Corporates, each Promissory Note is guaranteed by the NCUA and primarily funded by the TCCUSF.
To fund any claims under this initiative, the TCCUSF is authorized to make special premium
assessments as discussed herein, and if necessary, to draw on available borrowings from the U.S.
Treasury. As of December 31, 2011 and 2010, the NCUA had guarantees on the Promissory Notes
with an aggregate outstanding principal balance of zero and $18.2 billion, respectively. During 2011,
the NCUA applied funds primarily received from the issuance of NGNs, borrowings from U.S.


                                                   16
Treasury, and special premium assessments, to repay the Promissory Notes of $18.2 billion. This
amount included $5.7 billion in guaranty payments made by the TCCUSF.

The TCCUSF's Insurance and Guarantee Program Liability attributed to the Promissory Notes totaled
approximately $4.8 billion as of December 31, 2010. This expected loss was based on the NCUA’s
assessment of the guarantee exposure on the aggregate outstanding amount of $18.2 billion, net of
expected recovery from the AMEs that reflects the NCUA's expectations and assumptions about the
recovery value of the AMEs' assets as further discussed under fiduciary activities in Note 13. As of
December 31, 2011, the NCUA had no contingent liability against its guarantee of the Promissory
Notes, as the program ended.

NCUA Guaranteed Notes

Beginning in October 2010, the NCUA Board, as liquidating agent of the AMEs, transferred Legacy
Assets to NGN Trusts and re-securitized them through the issuance of a series of floating and fixed-rate
NGNs. The NGNs have final maturities ranging from 2013 to 2021. As of December 31, 2011 and
2010, the outstanding principal balance of the NGNs was $24.7 billion and $17.3 billion, respectively.
This amount represents the maximum potential, but not the expected, future guarantee payments that
NCUA could be required to make.

The NCUA, principally through the TCCUSF, is obligated to make guarantee payments through the
NGN Trusts to the NGN holders under certain conditions outlined in the respective indentures and
related agreements with respect to timely payment of interest and ultimate principal on the NGNs, as
well as any parity payments. As of a given payment date, parity payments are due when the unpaid
principal balance of all Legacy Assets underlying a particular NGN Trust, after realized and implied
losses, if applicable, is less than the remaining unpaid principal balance of the related NGNs after
distribution of all cash collected on the Legacy Assets for such payment date.

At December 31, 2011, the estimated guarantee obligation and resultant reserve for probable losses for
the guarantee of NGNs associated with 13 re-securitization transactions was zero. The gross estimated
guarantee payments were approximately $5.5 billion. This is estimated to be offset in part by both:
i) related reimbursements and interest from the legacy assets of the NGN Trusts received directly from
contractual reimbursement rights pursuant to the NGN governing documents of approximately
$3.9 billion and ii) indirectly by collections under CFR Section 709.5(b) from the AMEs’ interests in
Legacy Assets of approximately $1.6 billion that are estimated to remain after all obligations of the
NGN Trusts are satisfied.

At December 31, 2010, the TCCUSF had an estimated guarantee obligation of approximately
$0.6 billion associated with five NGN re-securitization transactions, which was comprised of
approximately $3.4 billion in estimated guarantee payments, partially offset by estimated related
reimbursements and interest from i) the aggregate remaining assets of all the NGN Trusts to be received
directly from contractual reimbursement rights pursuant to the NGN governing documents of
approximately $2.2 billion and ii) indirectly under CFR Section 709.5(b) from the AMEs’ interest in
Legacy Assets of approximately $0.6 billion that are estimated to remain after all obligations of the
NGN trusts are satisfied.

Potential guarantor reimbursements by the NGN Trusts to the NCUA are subordinate to payments on
the NGNs in accordance with the respective indentures. As such, reimbursements to the NCUA will
not occur until the applicable NGN has been repaid in full. After the NGNs are repaid in full, any cash
flows received on those Legacy Assets underlying the NGN Trusts are directed toward reimbursements
until the NCUA is reimbursed in full. The NCUA earns interest on any guarantee payments not yet
reimbursed by the NGN Trusts at a rate equal to the interest rate on the associated NGNs.


                                                  17
  Guarantee fees are senior in the NGN Trust payment waterfall in accordance with the respective
  indentures. It is expected that the NCUA will receive a guarantee fee payment from the NGN Trusts on
  each NGN payment date. The guarantee fee amount due to the NCUA, at each monthly payment date is
  equal to 35 basis points per year on the outstanding NGN balance prior to the distribution of principal
  on the payment date.

  The TCCUSF's Insurance and Guarantee Program Liability attributed to the NGNs as of December 31,
  2011 and 2010 was zero and approximately $614.5 million, respectively. The TCCUSF's expected net
  guarantee obligation is based on the estimated guarantee payments, net of estimated guarantor
  reimbursements from the NGN Trusts and expected recoveries from the AMEs, as further discussed
  under fiduciary activities in Note 13.

  The NCUA's estimated guarantee payments, guarantor reimbursements, and the recovery value of the
  AMEs' economic residual interests in the NGN Trusts are derived using an external model that
  distributes estimated cash flows of the Legacy Assets transferred to the NGN Trusts in the priority of
  payments pursuant to the indenture of each NGN Trust. The estimated cash flows incorporate the
  NCUA's assumptions about discount rates.

  The estimated cash flows of the Legacy Assets transferred to the NGN Trusts are also derived from the
  external model that incorporates the NCUA's expectations and assumptions about the estimated cash
  flows from the collateral that comprise the Legacy Assets, and the priority of payments and estimated
  cash flows of the Legacy Assets pursuant to the governing documents for the respective Legacy Assets.

  The external model produces estimated cash flows of collateral underlying the Legacy Assets by
  incorporating the NCUA's expectations and assumptions about prepayments, defaults and loss severity
  of the collateral consisting of residential and commercial mortgage loans and other assets. Assumptions
  about prepayments, defaults and loss severity are developed based on the characteristics and historical
  performance of the collateral, as well as assumptions about macroeconomic variables such as
  unemployment rates and housing prices.

9. INTRAGOVERNMENTAL COSTS AND EXCHANGE REVENUE

  Program costs and revenues are separated between Intragovernmental and Public to facilitate
  government-wide financial reporting. Intragovernmental revenue and expenses arise from transactions
  with other federal entities, including imputed costs for CSRP administrative expenses paid by the
  NCUA Operating Fund but not reimbursed by the TCCUSF. Public revenue and expenses arise from
  transactions with persons and organizations outside of the Federal Government. The associated costs
  and revenue of the TCCUSF’s initiatives for the years ended December 31, 2011 and 2010 are provided
  below. When guarantee payments are made for the TCCUSF’s initiatives, the TCCUSF obtains funds
  from special premium assessments, available cash, investments, and borrowings from the U.S.
  Treasury.




                                                    18
For the Year Ended December 31, 2011

Intragovernmental Costs and            USC Capital                                             Promissory
Exchange Revenue                          Note             TCCUSGP            TCCULGP             Notes        NGNs            Other         TOTAL
(Dollars in thousands)

Intragovernmental Costs                $           -   $           -   $              -   $            -   $         -    $       6,255 $   6,255
Public Costs                                       -            13,690            494,006          217,317      (614,513)         8,223   118,723
   Total                                           -            13,690            494,006          217,317      (614,513)        14,478        124,978

Intragovernmental Exchange Revenue                 -               -                   -                  -          -              (205)          (205)
Public Exchange Revenue                            -               -                (6,850)               -      (82,618)     (1,956,462)    (2,045,930)
   Total                                           -               -                (6,850)               -      (82,618)     (1,956,667)    (2,046,135)

    Net Cost/(Income)                  $           -   $        13,690 $          487,156 $        217,317 $    (697,131) $ (1,942,189) $ (1,921,157)



For the Year Ended December 31, 2010

Intragovernmental Costs and            USC Capital                                            Promissory
Exchange Revenue                          Note         TCCUSGP                TCCULGP            Notes         NGNs           Other         TOTAL
(Dollars in thousands)

Intragovernmental Costs                $     2,934 $               -    $             -   $            -   $        -   $       15,020 $ 17,954
Public Costs                                   -            (6,318,311)         2,402,447        4,768,897      614,513          4,647  1,472,193
   Total                                     2,934          (6,318,311)         2,402,447        4,768,897      614,513         19,667      1,490,147

Intragovernmental Exchange Revenue             -                   -                  -               -             -             (293)           (293)
Public Exchange Revenue                        -                   -               (7,964)            -          (7,577)    (1,007,050)     (1,022,591)
   Total                                       -                   -               (7,964)            -          (7,577)    (1,007,343)     (1,022,884)

    Net Cost/(Income)                  $     2,934 $        (6,318,311) $       2,394,483 $      4,768,897 $    606,936 $ (987,676) $ 467,263



USC Capital Note

During 2009, the TCCUSF received a $1.0 billion Capital Note investment in USC from the NCUSIF.
This action made the TCCUSF responsible for managing an intragovernmental relationship with the
U.S. Treasury and a public relationship with USC. Intragovernmental costs represents interest expense
incurred on the $1.0 billion borrowing from the U.S. Treasury of $2.9 million for the year ended
December 31, 2010. There were no costs associated with this initiative for the year ended
December 31, 2011.

Other

For the years ended December 31, 2011 and 2010, intragovernmental costs of $6.3 million and
$15.0 million included interest expense on borrowings, imputed costs, and the fee on the early
retirement of borrowings from the U.S Treasury. Public exchange revenue of $2.0 billion and
$1.0 billion consists primarily of special premium assessments invoiced during the years ended
December 31, 2011 and 2010, respectively.




                                                                         19
10. TERMS OF BORROWING AUTHORITY USED
   On June 23, 2009, the NCUA entered into a Memorandum of Understanding (MOU) with the U.S.
   Treasury to establish the terms and conditions for borrowing from the U.S. Treasury. This MOU is
   reviewed and updated annually. Interest is payable annually on the anniversary of the first advance,
   which was June 25, 2009. The interest rate resets on each anniversary at a rate equal to the average
   market yield on the outstanding marketable obligations of the United States with maturities equal to 12
   months. The interest rate per the MOU was 0.165 percent and 0.375 percent at December 31, 2011 and
   2010, respectively, with a maturity of June 25, 2016. Early repayment of any advance shall be at a
   price determined by the U.S. Treasury per the current MOU.

11. AVAILABLE BORROWING AUTHORITY, END OF PERIOD

   The TCCUSF shares its $6.0 billion borrowing authority from the U.S. Treasury with the NCUSIF.
   During 2011, the TCCUSF borrowed $3.5 billion from the U.S. Treasury, which remains outstanding as
   of December 31, 2011. During 2010, the TCCUSF borrowed $4.8 billion from the U.S. Treasury,
   which was repaid by December 31, 2010. The TCCUSF also repaid $1.0 billion to the U.S. Treasury in
   2010 for borrowings from 2009. At December 31, 2011 and 2010, the TCCUSF, together with the
   NCUSIF, had $2.5 billion and $6.0 billion in available borrowing authority from the U.S. Treasury,
   respectively.

12. DISCLOSURES RELATED TO THE STATEMENT OF BUDGETARY RESOURCES

   The Statement of Budgetary Resources discloses total budgetary resources available to the TCCUSF
   and the status of resources as of December 31, 2011 and 2010. Activity affecting budget totals of the
   overall Federal Government budget is recorded in the TCCUSF’s Statement of Budgetary Resources.
   As of December 31, 2011 and 2010, the TCCUSF’s resources in budgetary accounts totaled $9.0 billion
   and $11.3 billion, respectively.

   Undelivered orders were $1.2 million at December 31, 2011 and $8.7 million at December 31, 2010.
   All liabilities are covered by budgetary resources, excluding the Insurance and Guarantee Program
   Liabilities. All obligations incurred by the TCCUSF are reimbursable, meaning that obligations will be
   ultimately reimbursed from the special premium assessments to insured credit unions and from other
   collections. The TCCUSF is exempt from OMB apportionment control.

   Budgetary resources listed on the TCCUSF’s financial statements and the budgetary resources found in
   the budget of the Federal Government differ because the TCCUSF’s financial statements are prepared
   as of December 31, 2011, rather than as of September 30, 2011, the Federal Government’s fiscal year
   end.

13. FIDUCIARY ACTIVITIES

   The NCUA's fiduciary activities, in accordance with SFFAS No. 31, involve the collection or receipt,
   management, protection, accounting, investment, or disposition by AMEs and NGN Trusts of cash and
   other assets. Fiduciary assets are not assets of the Federal Government. Fiduciary activities are not
   recognized on the financial statements, but are reported in the notes to the financial statements in
   accordance with SFFAS No. 31.

   The NCUA Board, as liquidating agent of the AMEs, disburses funds for obligations owed by and
   collects money due to the AMEs.

   The Bridge Corporates, as previously discussed herein, were established to function in a temporary
   capacity and were formed by the NCUA Board as chartered private enterprises to purchase and assume
   selected assets, liabilities and member shares of the AMEs resulting from the five CCU liquidations that

                                                    20
occurred in 2010. The Bridge Corporates were established to provide uninterrupted services to the
natural person credit unions and CCUs that were members of the now failed CCUs.

At the time of liquidation in 2010, the AMEs had an aggregate deficit of approximately $7.2 billion,
which represents the difference between the value of the AMEs' assets and the contractual or settlement
amount of the claims and member shares recognized by the NCUA Board as the liquidating agent.

The liquidation of the CCUs and the creation of the Bridge Corporates also resulted in the issuance of
$36.0 billion in Promissory Notes by the AMEs to the Bridge Corporates. The Promissory Notes
represented reimbursements to the Bridge Corporates for the difference between assets purchased and
liabilities and member shares assumed from the AMEs.

As previously discussed herein, in an effort to maximize recoveries and minimize losses to the AMEs
and all insured credit unions, the NCUA provided guarantees on the various obligations of the AMEs,
including the Promissory Notes and the MTNs. In addition, in order to facilitate the orderly liquidation
of the Legacy Assets held by the AMEs, the NCUA provided guarantees on the NGNs issued through a
series of re-securitization transactions. During the year ended December 31, 2011 and 2010, the NCUA
completed eight NGN transactions with net proceeds received of $10.6 billion and five NGN
transactions with net proceeds received of $17.8 billion, respectively. The majority of proceeds from
the NGN issuances were used to partially repay the Promissory Notes owed by the AMEs to the Bridge
Corporates. As of December 31, 2011 and 2010, the aggregate outstanding amount of the Promissory
Notes was zero and $18.2 billion, respectively.

The schedules of fiduciary activity and the fiduciary net assets/liabilities of the AMEs and the NGN
Trusts for the years ended December 31, 2011 and 2010 are presented below. The preparation of these
schedules requires the NCUA Board, in its role as the liquidating agent, to make estimates and
assumptions that affect the reported amounts of assets, liabilities, revenues and expenses of the AMEs
and the NGN Trusts.




                                                  21
Schedule of Fiduciary Activity
                                                                             For the Year Ended December 31, 2011

(Dollars in thousands)                                   AMEs                NGN Trusts              Eliminations            TOTAL

 Fiduciary Net Liabilities, Beginning of Year   $          7,339,784     $                -      $                  -    $      7,339,784
 Net Realized Losses upon Liquidations                           -                        -                         -                 -
 Revenues
   Interest on Loans                                         (25,525)                    -                       -               (25,525)
   Income from AMEs on Re-Securitized Assets                     -                  (337,666)                337,666                 -
   Income from Investment Securities                        (528,065)                    -                       -              (528,065)
   Other Fiduciary Revenues                                 (180,937)                    -                       -              (180,937)
 Expenses
   Professional and Outside Services Expenses                78,584                      -                        -               78,584
   Interest Expense on Borrowings and NGNs                  151,609                  255,048                      -              406,657
   Payments to NGN Trusts                                   337,666                      -                   (337,666)               -
   Guarantee Fees                                             6,850                   82,618                                      89,468
   Other Expenses                                            10,266                      -                          -             10,266
 Net Change in Recovery Value of
 Assets and Liabilities                                     290,111                       -                         -            290,111
 Increase in Fiduciary Net Liabilities                      140,559                       -                         -            140,559

FIDUCIARY NET LIABILITIES, END OF THE PERIOD    $          7,480,343     $                -      $                  -    $      7,480,343



Schedule of Fiduciary Activity
                                                                             For the Year Ended December 31, 2010

(Dollars in thousands)                                   AMEs                NGN Trusts              Eliminations            TOTAL

 Fiduciary Net Liabilities, Beginning of Year   $                -       $                -      $                  -    $            -
 Net Realized Losses upon Liquidations                     7,193,716                      -                         -           7,193,716
 Revenues
   Interest on Loans                                          (8,861)                    -                       -                (8,861)
   Income from AMEs on Re-Securitized Assets                       -                 (40,801)                 40,801                 -
   Income from Investment Securities                        (144,155)                    -                       -              (144,155)
   Other Fiduciary Revenues                                   (2,369)                    -                       -                (2,369)
 Expenses
   Professional and Outside Services Expenses                    7,980                   -                        -                7,980
   Interest Expense on Borrowings and NGNs                      99,208                33,358                      -              132,566
   Payments to NGN Trusts                                       40,801                   -                    (40,801)               -
   Other Expenses                                                3,258                 7,443                      -               10,701
 Net Change in Recovery Value of
 Assets and Liabilities                                      150,206                      -                         -             150,206
 Increase in Fiduciary Net Liabilities                     7,339,784                      -                         -           7,339,784

FIDUCIARY NET LIABILITIES, END OF THE PERIOD    $          7,339,784     $                -      $                  -    $      7,339,784



The schedule of fiduciary activity includes revenues earned on the investments including Legacy
Assets, loans, real estate and other investments, and expenses incurred in orderly liquidation of the
AMEs, including interest expense on borrowings and the NGNs. The Net Change in Recovery Value of
Assets and Liabilities includes the realized and unrealized gains and losses on the Legacy Assets, loans,
real estate, investments and other assets and liabilities.




                                                    22
Schedule of Fiduciary Net Assets/Liabilities                                              As of December 31, 2011

(Dollars in thousands)                                     AMEs                     NGN Trusts                  Eliminations                  TOTAL

Fiduciary Assets
  Cash and Cash Equivalents                            $       709,700      $              349,061      $                    -        $          1,058,761
  Legacy Assets                                                    383                         -                             -                         383
  Legacy Assets/Investments Collateralizing the NGNs        24,547,781                     155,447                           -                  24,703,228
  Loans                                                        362,926                         -                             -                     362,926
  Receivable from AMEs                                               -                  24,164,790                   (24,164,790)                      -
  Other Fiduciary Assets                                       258,963                         -                             -                     258,963
TOTAL FIDUCIARY ASSETS                                      25,879,753                  24,669,298                   (24,164,790)               26,384,261
Fiduciary Liabilities
  Accrued Expenses                                              (66,440)                    (16,231)                        -                      (82,671)
  Promissory Notes                                                  -                           -                           -                          -
  MTNs                                                       (3,500,000)                        -                           -                   (3,500,000)
  NGNs                                                              -                   (24,653,067)                        -                  (24,653,067)
  Due to NGN Trusts                                         (24,164,790)                        -                    24,164,790                        -
  Unsecured Claims and Payables                                  (2,849)                        -                           -                       (2,849)
  Due to TCCUSF                                              (5,626,017)                        -                           -                   (5,626,017)
TOTAL FIDUCIARY LIABILITIES                                 (33,360,096)                (24,669,298)                 24,164,790                (33,864,604)
TOTAL FIDUCIARY NET ASSETS / (LIABILITIES)             $     (7,480,343)    $                   -       $                   -         $         (7,480,343)



Schedule of Fiduciary Net Assets/Liabilities                                               As of December 31, 2010

(Dollars in thousands)                                     AMEs                      NGN Trusts                  Eliminations                  TOTAL

Fiduciary Assets
  Cash and Cash Equivalents                            $      2,263,242         $            211,911        $                  -          $        2,475,153
  Legacy Assets                                              13,415,065                          -                             -                  13,415,065
  Legacy Assets Collateralizing the NGNs                     16,958,268                          -                             -                  16,958,268
  Loans                                                         800,076                          -                             -                     800,076
  Receivable from AMEs                                                -                   17,349,791                   (17,349,791)                      -
  Other Fiduciary Assets                                        364,989                          -                             -                     364,989
TOTAL FIDUCIARY ASSETS                                       33,801,640                   17,561,702                   (17,349,791)               34,013,551
Fiduciary Liabilities
  Accrued Expenses                                               (47,897)                    (10,321)                         -                      (58,218)
  Promissory Notes                                           (18,189,414)                        -                            -                  (18,189,414)
  MTNs                                                        (5,500,000)                        -                            -                   (5,500,000)
  NGNs                                                               -                   (17,551,381)                         -                  (17,551,381)
  Notes Payable - Other                                             (206)                        -                            -                         (206)
  Due to NGN Trusts                                          (17,349,791)                        -                     17,349,791                        -
  Unsecured Claims                                               (54,116)                        -                            -                      (54,116)
TOTAL FIDUCIARY LIABILITIES                                  (41,141,424)                (17,561,702)                  17,349,791                (41,353,335)
TOTAL FIDUCIARY NET ASSETS / (LIABILITIES)             $      (7,339,784)       $                -          $                 -           $       (7,339,784)



The schedule of fiduciary net assets reflects the expected recovery value of the AMEs' assets, including
the Legacy Assets collateralizing the NGNs issued through the NGN Trusts, and the settlement value of
valid claims against the AMEs outstanding at December 31, 2011 and 2010. Certain claims against the
AMEs including the Promissory Notes and the MTNs, as well as the NGNs, are guaranteed by the
NCUA as previously discussed herein.

Fiduciary assets include cash, investments including Legacy Assets collateralizing the NGNs, consumer
and mortgage loans, investments in credit union service organizations, buildings, fixtures, furniture,
equipment and other investments. Fiduciary assets are recorded at values that the NCUA expects to
recover based on market information and external valuations such as appraisals, as well as internal and
external models incorporating the NCUA’s current assumptions regarding numerous factors, including
prepayments, defaults, loss severity and discount rates.

Fiduciary liabilities include the Promissory Notes, MTNs and NGNs and related accrued interest
expense, unsecured claims and accrued liquidation costs. Fiduciary liabilities related to borrowings and

                                                               23
claims are recorded at their contractual or settlement amounts as agreed by the NCUA and the creditors.
Accrued liquidation costs reflect the NCUA's estimates and assumptions regarding the timing and
associated costs to dispose of the AME assets. Our future estimate of liquidation costs, as well as the
actual amounts, could differ materially from our current estimates and assumptions.

Unless expressly guaranteed by the NCUA and backed by the full faith and credit of the United States,
the AMEs' unsecured creditors could only expect to be paid if recoveries from the assets of the AMEs
are sufficient to be distributed to the unsecured creditors in order of priority as set forth in CFR Section
709.5(b).




                                                    24
14. RECONCILIATION OF NET COST OF OPERATIONS (PROPRIETARY) TO BUDGET

   The Reconciliation of Net Cost of Operations to Budget explains the difference between the budgetary
   net obligations and proprietary net cost of operations during the period ended December 31, 2011, and
   2010. As of December 31, 2011, and 2010, the Reconciliation of Net Cost of Operations to Budget
   consisted of the following:
  Reconciliation of Net Cost of Operations to Budget
  (Dollars in Thousands)                                      As of December 31,    As of December 31,
                                                                     2011                  2010
  Resources Used to Finance Activities:

  Unobligated Balance, brought forward, January 1             $        6,362,814     $        5,361,945
  Borrowing Authority Realized                                                 -              5,810,000
    Spending Authority from Offsetting Collections
       Collected                                                       2,312,603              5,939,224
       Change in Receivables from Federal Sources                           (194)               (21,157)
    Permanently not available                                                  -             (5,810,000)
    Nonexpenditure Transfers, Net                                        278,641                      -

     Total Budgetary Resources                                         8,953,864             11,280,012
     Less Unobligated Balance - Exempt from Apportionment             (3,058,245)            (6,362,814)
  Total Obligations Incurred                                           5,895,619              4,917,198
  Imputed Financing                                                        3,778                  5,858
         Total Resources Used to Finance Activities                    5,899,397              4,923,056

  Resources Used to Fund Items Not Part of the Net Cost of
  Operations:
  Collection of Loan Principal                                                 -             (4,810,000)
  Other Collections                                                     (266,468)              (106,340)
  Change in Federal Accounts Receivable                                      194                 21,157
  Change in Budgetary Resources Obligated for Goods and
  Services Not Yet Received                                                7,473                 (8,681)
  Change in Receivable from AMEs                                      (5,626,017)                     -
  Change in Uncollected Customer Payments                                 (1,133)                 3,409
  Other Adjustments to Net Obligated Resources that do not
  Affect Net Cost of Operations                                            1,032                      -
         Total Resources Used to Fund Items Not Part of the
         Net Cost of Operations                                       (5,884,919)            (4,900,455)



  Costs Included in the Net Cost of Operations That Do Not
  Require Resources During the Reporting Period:

  Reserve for Guarantee Liabilities                                      110,500              1,467,546
  Revenue Recognized
     Interest Collected - on Investments                                    (205)                  (293)
     Interest Collected - on Loans                                             -                 (3,673)
     Fee on Early Retirement of Loans to CCUs                                  -                 (3,785)
     Guarantee Fees                                                      (89,468)               (15,541)
     Special Premiums                                                 (1,956,462)              (999,592)
         Total Costs That Do Not Require Resources                    (1,935,635)              444,662

  Net Cost of Operations                                      $       (1,921,157)    $         467,263




                                                       25
15. SUBSEQUENT EVENTS

   In accordance with SFFAS No. 39, Subsequent Events: Codification of Accounting and Financial
   Reporting Standards Contained in the AICPA Statements on Auditing Standards (SFFAS No. 39),
   subsequent events have been evaluated through June 21, 2012, which is the date the financial
   statements were available to be issued. The following events, subsequent to the finalization of the
   December 31, 2011 financial statements warrant identification.

   On March 15, 2012, the TCCUSF received $278.6 million from the NCUSIF satisfying the distribution
   receivable due as of December 31, 2011.

   On April 18, 2012, the TCCUSF repaid $300.0 million of debt borrowed from the U.S Treasury.

REQUIRED SUPPLEMENTARY INFORMATION (UNAUDITED)

   Risk Assumed Information

   Contingent Liability

   As discussed previously herein, the purpose of the TCCUSF is to accrue the losses of the CCU system
   and, over time, assess insured credit unions for the recovery of such losses. The NCUA identifies
   CCUs at risk of failure through the supervisory and examination process, and estimates losses based
   upon macroeconomic trends and CCU's financial condition and operations.

   The contingent liability for expected losses from the CCU system recognized by the TCCUSF pursuant
   to SFFAS No. 5 was approximately $2.9 billion and $7.8 billion at December 31, 2011 and 2010,
   respectively. As discussed in Note 8, the TCCUSF's contingent liability is related to four initiatives
   established by the NCUA to stabilize the CCU system consisting of the TCCUSGP, TCCULGP, the
   Promissory Notes, and NGN issuances.

   At December 31, 2011 the TCCUSF had accrued for losses of the CCU system of approximately
   $7.9 billion consisting of approximately $2.9 billion in contingent liability and $5.0 billion in allowance
   for losses against receivables from the AMEs. At December 31, 2010, the TCCUSF had accrued for
   losses of the CCU system of approximately $7.8 billion, consisting solely of a contingent liability, as
   there was no receivable due from the AME in 2010 and therefore no associated allowance for loss.

   As discussed in Notes 6 and 8, during 2011, the TCCUSF made guarantee payments of $5.7 billion
   related to the guarantee of the Promissory Notes. As of December 31, 2011, the TCCUSF had gross
   receivables from the AMEs of $5.6 billion, against which an allowance for losses of approximately
   $5.0 billion was established.

   Fees and Premiums

   Under the TCCULGP and NGN initiatives, the TCCUSF is entitled to guarantee fees on a monthly
   basis for providing associated guarantees as previously discussed in Notes 4 and 8. As of December 31,
   2011, the estimated TCCUSF guarantee fees for the remaining term of the TCCULGP and the NGNs,
   which will lessen the expected losses recognized by TCCUSF, are $4.3 million and $380.8 million,
   respectively. As of December 31, 2010, the estimated value of TCCUSF guarantee fees for the
   remaining term of the TCCULGP and the NGNs, which will lessen the expected losses recognized by
   TCCUSF, are $11.2 million and $284.0 million, respectively.

   In addition, the NCUA Board, under the FCU Act, may assess insured credit unions special premiums
   to cover payments for the conservatorship, liquidation, or threatened conservatorship or liquidation of


                                                      26
CCUs. The TCCUSF assessed a special premium of $2.0 billion and $1.0 billion in 2011 and 2010,
respectively. The NCUA Board expects to assess additional special premiums on insured credit union
periodically for the recovery of losses over the remaining term of the TCCUSF.

Sensitivity, Risks and Uncertainties of the Assumptions

As discussed in Note 8, the NCUA estimates the expected losses from the four initiatives using various
methodologies including internal models, market information and external valuations such as
appraisals, and internal and external models that incorporate the NCUA's expectations and assumptions
about the financial condition and operations of the Bridge Corporates, CCUs and the AMEs, as well as
the anticipated recovery value, if any, of the AMEs' assets and the Legacy Assets collateralizing the
NGNs.

The development of assumptions for key input variables of the estimation models and external
valuations is a highly subjective process that involves significant judgment. Future values are difficult
to estimate, especially over longer timeframes. Key assumptions in the modeling include borrower
status, prepayments, default, loss severity, discount rates, forward interest rate curves, house price
appreciation forecasts, legal and regulatory changes, property locations, and unemployment
expectations. Assumptions also vary by asset type and vintage. The assumptions developed for the
estimation models are periodically evaluated by the NCUA to determine the reasonableness of those
assumptions over time.

Temporary Corporate Credit Union Share Guarantee Program

The TCCUSF has insured CCU member shares totaling $34.0 billion and $80.0 billion as of December
31, 2011 and 2010, respectively. The expected loss of $60.9 million and $47.2 million at December 31,
2011 and 2010, respectively, is attributed to the Bridge Corporates and other CCUs, which is dependent
upon the NCUA's expectations and assumptions about the Bridge Corporates’ and other CCUs financial
condition and projected operating cash flows and expected recoveries from liquidated CCUs after a
payment under the TCCUSGP. These are dependent on the ultimate outcome of the credit union
system-led resolution to the Bridge Corporates and completion of the CSRP. Actual resolution of the
remaining Bridge Corporates and other CCUs experiencing financial difficulties, and the ultimate losses
to be incurred by the TCCUSF could differ materially from the assumptions made as of December 31,
2011 and 2010.

Temporary Corporate Credit Union Liquidity Guarantee Program and the Promissory Notes

The expected losses from the guarantee under the TCCULGP and the Promissory Notes are largely
dependent upon the expected recovery, if any, from the AMEs and reflect the NCUA's expectations and
assumptions about the recovery value, if any, of the AMEs' assets as previously discussed under
fiduciary activities in Note 13. As of December 31, 2011, the aggregate outstanding amount of the
MTNs and the Promissory Notes was $3.5 billion and zero, respectively. As of December 31, 2010, the
aggregate outstanding amount of the MTNs and the Promissory Notes was $5.5 billion and $18.2
billion, respectively.

As discussed in Note 8s and Note 13, the TCCUSF made guarantee payments of $5.7 billion in 2011. It
is expected that the TCCUSF would make guarantee payments with respect to the remaining MTNs due
in October and November 2012.

As discussed in Notes 8 and 13, in the event of a guarantee payment on the MTNs under the TCCULGP
and the Promissory Notes, the TCCUSF is entitled to reimbursements from the AMEs, to the extent
there are remaining assets, in accordance with the priority of payments specified in CFR Section
709.5(b). The amount and timing of reimbursements, if any, from the AMEs are based on the NCUA

                                                   27
Board’s expectations and assumptions about its ability, as the liquidating agent, to liquidate the AME
assets, such as loans, investments in credit union service organizations, buildings, fixtures, furniture,
equipment, economic residual interests in the NGN Trusts, and other investments.

The expected recovery values of the AMEs' assets are derived using market information and external
valuations, such as appraisals and internal and external models that incorporate the NCUA's
assumptions about prepayments, defaults, loss severity and discount rates that differ by borrower status,
asset types and other factors. In particular, the AMEs' economic residual interests in the NGN Trusts
are sensitive to the assumptions made by the NCUA as further discussed below. Recovery amounts, if
any, of the AME assets and ultimate gross claims to be paid by the TCCUSF, net of any
reimbursements from the AMEs, could differ materially from the assumptions made as of
December 31, 2011 and 2010.

NCUA Guaranteed Notes

As discussed in Note 8, the principal balance of the NGNs was $24.7 billion and $17.3 billion as of
December 31, 2011 and 2010, respectively. This amount represents the maximum potential future
guarantee payments that NCUA could be required to make without consideration of any possible
recoveries under the terms of the guarantee or from the AMEs. The losses from the guarantee of NGNs
are expected to be significantly less than the above maximum potential exposure, and such losses are
based on the estimated guarantee payments, net of estimated guarantor reimbursements, if any, from the
NGN Trusts and expected recoveries, if any, from the AMEs. The NCUA's estimate of the expected
recovery from the AMEs reflects the NCUA's expectations and assumptions about the recovery value of
the AMEs' assets as discussed above, which include AMEs' economic residual interests in the NGN
Trusts.

As discussed in Note 8, the NCUA's estimated guarantee payments, guarantor reimbursements, and the
recovery values, if any, of the AMEs' economic residual interests in the NGN Trusts are derived using
an external model that distributes estimated cash flows of the Legacy Assets transferred to the NGN
Trusts in the priority of payments pursuant to the governing documents of each NGN Trust. The
estimated cash flows incorporate the NCUA's assumptions about discount rates.

The estimated cash flows of the Legacy Assets transferred to the NGN Trusts are also derived from the
external model that incorporates the NCUA's expectations and assumptions about the estimated cash
flows from the collateral underlying the Legacy Assets, and the priority of payments and estimated cash
flows of the Legacy Assets pursuant to the governing documents for the respective Legacy Assets.

The external model produces estimated cash flows of collateral underlying the Legacy Assets by
incorporating the NCUA's expectations and assumptions about prepayments, defaults and loss severity
of the collateral consisting of residential and commercial mortgages and other assets. Assumptions
about prepayments, defaults and loss severity are developed based on the characteristics and historical
performance of the collateral, as well as assumptions about macroeconomic variables such as
unemployment rate and housing prices, among other factors.

The tables below represent the composition of Legacy Assets collateralizing the 13 NGN Trusts with an
aggregate unpaid principal balance of $34.3 billion and recovery value of approximately $24.5 billion
as of December 31, 2011. As of December 31, 2010, the aggregate unpaid principal balance and
recovery value of the Legacy Assets collateralizing the five NGN Trusts outstanding was $19.1 billion
and $17.0 billion, respectively.




                                                   28
Asset Type and Credit Rating 1                           Based on Recovery Value                 Based on Unpaid Principal Balance
                                                         2011                   2010                  2011                    2010
                 AAA                                             3%                     7%                    2%                      6%
                 AA                                              7%                    10%                    4%                     10%
                 A                                               3%                     7%                    2%                      7%
    RMBS                                           71%                    68%                   79%                     68%
                 BBB                                             5%                     4%                    3%                      4%
                 Below Investment Grade                         82%                    72%                   88%                     73%
                 NA                                              0%                     0%                    0%                      0%
                 AAA                                            16%                    18%                   17%                     18%
                 AA                                             15%                    19%                   15%                     19%
                 A                                              44%                    44%                   44%                     43%
    CMBS                                           19%                    25%                   13%                     25%
                 BBB                                            15%                    17%                   14%                     17%
                 Below Investment Grade                         10%                     1%                   11%                      1%
                 NA                                              0%                     2%                    0%                      2%
                 AAA                                            23%                    25%                   18%                     24%
                 AA                                             18%                    19%                   15%                     18%
                 A                                              33%                    29%                   27%                     29%
    ABS2                                            6%                     7%                    5%                     7%
                 BBB                                             7%                    25%                    6%                     26%
                 Below Investment Grade                         19%                     3%                   34%                      3%
                 NA                                              0%                     0%                    0%                      0%
   Agency        Agency                             3%        100%         NA          NA        2%        100%         NA           NA
                 AAA                                             0%                    NA                     0%                     NA
                 AA                                              2%                    NA                     2%                     NA
                 A                                              27%                    NA                    21%                     NA
  Corporate                                         2%                     NA                    2%                     NA
                 BBB                                            28%                    NA                    23%                     NA
                 Below Investment Grade                          1%                    NA                     5%                     NA
                 NA                                             41%                    NA                    49%                     NA
1 Credit rating is based on the lowest rating published by the Standard & Poor's, Moody's and Fitch, where available.

2 T he collateral underlying the ABS included in the tables above is primarily student loans.


    While certain parts of the credit market have seen recent improvements, the performance of asset- and
    mortgage-backed securities, such as the Legacy Assets remains uncertain. The longer-term outlook for
    borrower and loan performance is uncertain. Uncertainty around housing prices, interest and
    unemployment rates, legal and regulatory actions, and the relationship of these factors to prepayment,
    loss severity, default and delinquency rates will likely change over time. Legacy Asset performance
    continues to be challenging to predict, and the external model used to derive the expected losses to the
    TCCUSF from the guarantee of the NGNs is sensitive to assumptions made about Legacy Asset
    performance. For example, changing the assumptions for reasonably possible variations in certain
    macroeconomic factors such as a decline in housing prices from its most recent peak in the external
    model would have resulted in the NCUA's expected losses, net of estimated guarantor reimbursements
    and the economic residual interests in the NGN Trusts (but exclusive of the estimated guarantee fees for
    the remaining term of the NGNs) associated with 13 re-securitization transactions to be zero under one
    scenario, and approximately $1.3 billion in another scenario, as compared to no expected net losses on
    the NGN guarantees recognized on the TCCUSF’s Balance Sheet as of December 31, 2011. The
    NCUA estimated the net expected losses associated with five re-securitization transactions to be zero
    under one scenario, and approximately $1.3 billion in another scenario, as compared to $614.5 million
    in expected losses on the NGN guarantees recognized on the TCCUSF's Balance Sheet as of
    December 31, 2010.



                                                                  29
The estimates of the NCUA's guarantee payments under the NGNs require significant judgment and
will change over time. Forecasting borrower behavior and changes in the macroeconomic environment
is inherently difficult. Historical trends are not indicative of future performance. Even under so-called
normal conditions, leading economic experts have great difficulty predicting economic conditions with
any degree of certainty. The assumptions used to estimate the cash flows of the NGNs, Legacy Assets
underlying the NGNs, and collateral underlying the Legacy Assets will require continued calibration
and refinement.




                                                  30
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




             Independent Auditors’ Report on Internal Control Over Financial Reporting


Inspector General, National Credit Union Administration and
The National Credit Union Administration Board:

We have audited the balance sheets of the National Credit Union Administration’s Temporary Corporate
Credit Union Stabilization Fund (TCCUSF) as of December 31, 2011 and 2010 and the related statements
of net cost, and changes in net position, and statements of budgetary resources (hereinafter referred to as
“financial statements”) for the years then ended, and have issued our report thereon dated June 21, 2012.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the financial statements are free of material misstatement.

The management of the TCCUSF is responsible for establishing and maintaining effective internal control.
In planning and performing our fiscal year 2011 audit, we considered the TCCUSF’s internal control over
financial reporting by obtaining an understanding of the TCCUSF’s internal control, determining whether
internal controls had been placed in operation, assessing control risk, and performing tests of controls as a
basis for designing our auditing procedures for the purpose of expressing our opinion on the financial
statements, but not for the purpose of expressing an opinion on the effectiveness of the TCCUSF’s internal
control over financial reporting. Accordingly, we do not express an opinion on the effectiveness of the
TCCUSF’s internal control over financial reporting. We did not test all internal controls relevant to
operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A significant deficiency is a deficiency, or a
combination of deficiencies, in internal control that is less severe than a material weakness, yet important
enough to merit attention by those charged with governance. A material weakness is a deficiency, or a
combination of deficiencies, in internal control such that there is a reasonable possibility that a material
misstatement of the entity’s financial statements will not be prevented, or detected and corrected on a
timely basis.

Our consideration of internal control over financial reporting was for the limited purpose described in the
third paragraph of this report and was not designed to identify all deficiencies in internal control over
financial reporting that might be deficiencies, significant deficiencies, or material weaknesses. In our fiscal
year 2011 audit, we did not identify any deficiencies in internal control over financial reporting that we
consider to be material weaknesses, as defined above.




                                                                 31
                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
Exhibit I presents the status of the prior year significant deficiency.

This report is intended solely for the information and use of the addressees, TCCUSF’s management,
Office of Management and Budget (OMB), the U.S. Government Accountability Office, and the U.S.
Congress and is not intended to be and should not be used by anyone other than these specified parties.




June 21, 2012




                                                       32
STATUS OF PRIOR YEAR FINDINGS

Exhibit I

            2010 Finding                   Deficiency Type        2011 Status

 Lack of sufficient preparation of the   Significant Deficiency     Closed
 accounting and reporting of the
 Corporate System Resolution Program




                                                33
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




                   Independent Auditors’ Report on Compliance and Other Matters


Inspector General, National Credit Union Administration and
The National Credit Union Administration Board:

We have audited the balance sheets of the National Credit Union Administration’s Temporary Corporate
Credit Union Stabilization Fund (TCCUSF) as of December 31, 2011 and 2010, and the related statements
of net cost, changes in net position, and statements of budgetary resources (hereinafter referred to as
“financial statements”) for the years then ended, and have issued our report thereon dated June 21, 2012.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the financial statements are free of material misstatement.

The management of the TCCUSF is responsible for complying with laws, regulations, and contracts
applicable to the TCCUSF. As part of obtaining reasonable assurance about whether the TCCUSF’s
financial statements are free of material misstatement, we performed tests of the TCCUSF’s compliance
with certain provisions of laws, regulations, and contracts, noncompliance with which could have a direct
and material effect on the determination of the financial statement amounts, and certain provisions of other
laws and regulations specified in OMB Bulletin No. 07-04. We limited our tests of compliance to the
provisions described in the preceding sentence, and we did not test compliance with all laws, regulations,
and contracts applicable to the TCCUSF. However, providing an opinion on compliance with those
provisions was not an objective of our audit, and accordingly, we do not express such an opinion.

The results of certain of our tests of compliance described in the third paragraph of this report, disclosed no
instances of noncompliance or other matters that are required to be reported herein under Government
Auditing Standards or OMB Bulletin No. 07-04.

This report is intended solely for the information and use of the addressees, TCCUSF’s management,
OMB, the U.S. Government Accountability Office, and the U.S. Congress and is not intended to be and
should not be used by anyone other than these specified parties.




June 21, 2012




                                                                 34
                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
